APPENDIX A

Filed 1/24/20 MacDonald v. Kempinsky CA2/3

NOT TO BE PUBLISHED IN THE OFFICIAL REPORTS
California Rules of Court, rule 8.1115(a), prohibits courts and parties from citing or relying on
opinions not certified for publication or ordered published, except as specified by rule 8.1115(a). This
opinion has not been certified for publication or ordered published for purposes of rule 8.1115(a).

IN THE COURT OF APPEAL OF THE STATE OF CALIFORNIA
SECOND APPELLATE DISTRICT
DIVISION THREE

james

Macdonald,

Plaintiff and Appellant,
v.

B283424
Los Angeles County
Super. Ct. No. BC635970

LOUIS E. KEMPINSKY et al.,
Defendants and Respondents.

APPEALS from orders of the Superior Court of Los Angeles
County, David Sotelo, Judge. Affirmed.
James MacDonald, in pro. per, for Plaintiff and Appellant.
Kaufman Dolowich Voluck, Andrew J. Waxier and
Courtney E. Curtis-Ives for Defendants and Respondents
Louis E. Kempinsky and Kempinsky Law Ltd.
Gaglione Dolan & Kaplan, Robert T. Dolan and Amy J.
Cooper for Defendants and Respondents Shereen Arazm,
David R. Hilty and OOC Hollywood 1, LLC.

APPENDIX A - 1

Nemecek & Cole, Jonathan B. Cole, Michael McCarthy and
Mark Schaeffer for Defendants and Respondents Martin D.
Singer, Lavely & Singer and Andrew Brettler.

INTRODUCTION
In this consolidated appeal, plaintiff and appellant James
MacDonald (plaintiff) filed four notices of appeal challenging a
variety of orders entered by the trial court. Plaintiff’s briefing,
however, appears to focus only on orders granting special motions
to strike his complaint under Code of Civil Procedure section
425.16 in favor of two sets of defendants who are respondents in
the present appeal: attorney Louis E. Kempinsky, Kempinsky
Law Ltd., Shereen Arazm, David R. Hilty, and OOC Hollywood 1,
LLC (Kempinsky defendants), and attorney Martin D. Singer,
attorney Andrew Brettler, and Lavely & Singer (Singer
defendants).
To obtain a reversal of a judgment or order, an appellant
must affirmatively establish both error by the trial court and
prejudice from that error. And to facilitate appellate review of
rulings made in the trial court, an appellant must provide the
reviewing court with a record containing all material relevant to
the orders or judgment challenged in the appeal, cite to that
record throughout the appellate briefing, and present a coherent
legal argument applying pertinent legal authority to the relevant
facts.
Although plaintiff represents himself on appeal, he is
nevertheless required to follow the basic rules of appellate
practice. And as an experienced litigant in the Court of Appeal,
plaintiff should now be familiar with these requirements as well

2

APPENDIX A - 2

as his obligation to comply with them. Here, even giving his brief
the most generous reading, we are unable to discern a coherent
legal argument supported by matters contained in the appellate
record. Accordingly, we affirm the orders of the trial court without
reaching the merits of plaintiff’s contentions.
FACTS AND PROCEDURAL BACKGROUND
A portion of the relevant factual background is set forth in
a prior opinion of this Division (MacDonald v. Singer et al.
(Jan. 23, 2018, B261024) [nonpub. opn.]) as well as a published
decision by our colleagues in Division Four of this court Malin v.
Singer (2013) 217 Cal.App.4th 1283.
Summarized briefly, Shereen Arazm and her former
business partners, Michael Moore and Lonnie Malin, and others,
have been involved in multiple actions in the trial court arising
from failed business dealings. In MacDonald v. Singer et al.,
supra, B261024 (the prior appeal), the underlying litigation
related to a demand letter sent to Moore and Malin by Arazm and
her attorney, Martin D. Singer, as the partnership deteriorated.
The demand letter attached a draft complaint which contained
salacious details about unnamed parties’ sexual activities; the
letter threatened to fill in the blanks, thereby revealing that
Malin had, among other things, been using company money to
arrange sexual liaisons.
Plaintiff (who worked as a controller for business ventures
of the partnership) sued Singer, Brettler, and Singer’s law firm,
as well as Arazm and her husband, Oren Koules, for violation of
civil rights, intentional infliction of emotional distress, and
negligent infliction of emotional distress. Plaintiff contended he
was one of the targets of the demand letter and that Singer,
Arazm, and Koules had each contacted him and threatened to

3

APPENDIX A - 3

name him and disclose his sexual proclivities in the complaint.
The defendants filed special motions to strike plaintiff’s
complaint under Code of Civil Procedure section 425.16
(anti-SLAPP statute), contending their conduct was speech
protected by the anti-SLAPP statute and which is absolutely
protected by the litigation privilege. The trial court agreed, and
we affirmed. {MacDonald v. Singer et al, supra, B261024.)
In the present case, plaintiff has sued the Singer
defendants and the Kempinsky defendants, alleging those parties
committed wrongful acts during the litigation that was the
subject of the prior appeal. Both sets of defendants filed special
motions to strike plaintiff’s complaint under the anti-SLAPP
statute, again contending their conduct falls within the scope of
the anti-SLAPP statute and is absolutely protected by the
litigation privilege. The court granted both motions and awarded
attorney’s fees as required under the anti-SLAPP statute.
Plaintiff filed timely notices of appeal from those orders.
DISCUSSION
As noted, plaintiff represents himself on appeal.
Nonetheless, he is bound to follow the most fundamental rule of
appellate review which is that the judgment or order challenged
on appeal is presumed to be correct, and “it is the appellant’s
burden to affirmatively demonstrate error.” {People v. Sanghera
(2006) 139 Cal.App.4th 1567, 1573.) “ All intendments and
presumptions are indulged to support it on matters as to which
the record is silent, and error must be affirmatively shown.
{Denham v. Superior Court {1970) 2 Cal.3d 557, 564.) To
overcome this presumption, an appellant must provide a record
that allows for meaningful review of the challenged order. {Ibid.)
If the record does not include all the evidence and materials the
5 »

4

APPENDIX A-4

trial court relied on in making its determination, we will not find
error. {Haywood v. Superior Court {2000) 77 Cal.App.4th 949,
955.) Rather, we will infer substantial evidence supports the
court’s findings. {Ibid.)
In addition, parties must provide citations to the appellate
record directing the court to the supporting evidence for each
factual assertion contained in that party’s briefs. When an
opening brief fails to make appropriate references to the record to
support points urged on appeal, we may treat those points as
waived or forfeited. (See, e.g., Lonely Maiden Productions, LLC v.
GoldenTree Asset Management, LP{2011) 201 Cal.App.4th 368,
384; Dietz v. Meisenheimer & Herron (2009) 177 Cal.App.4th 771,
779-801 [several contentions on appeal “forfeited” because
appellant failed to provide a single record citation demonstrating
it raised those contentions at trial].) Further, “an appellant must
present argument and authorities on each point to which error is
asserted or else the issue is waived.” {Kurinij v. Hanna & Morton
(1997) 55 Cal.App.4th 853, 867.) Matters not properly raised or
that lack adequate legal discussion will be deemed forfeited.
{Keyes v. Bowen (2010) 189 Cal.App.4th 647, 655-656.)
An appellant has the burden not only to show error but
prejudice from that error. (Cal. Const., art. VI, § 13.) If an
appellant fails to satisfy that burden, his argument will be
rejected on appeal. {Century Surety Co. v. Polisso (2006) 139
Cal.App.4th 922, 963.) “[W]e cannot presume prejudice and will
not reverse the judgment in the absence of an affirmative
showing there was a miscarriage of justice. [Citations.] Nor will
this court act as counsel for appellant by furnishing a legal
argument as to how the trial court’s ruling was prejudicial.
[Citations.]” {Ibid.) In short, an appellant must demonstrate

5

APPENDIX A - 5

prejudicial or reversible error based on sufficient legal argument
supported by citation to an adequate record. {YieldDynamics,
Inc. v. TEA Systems Corp. (2007) 154 Cal.App.4th 547, 556-557.)
And it is well established that “ ‘[w]hen a litigant is appearing in
propria persona, he is entitled to the same, but no greater,
consideration than other litigants and attorneys [citations].’
[Citations.]” {Harding v Collazo (1986) 177 Cal.App.3d 1044,
1056.)
Although plaintiff is not an attorney, he should be familiar
with these legal principles by now. Indeed, we have articulated
and applied these well-settled appellate standards in two prior
appeals by plaintiff in related cases. {MacDonald v. Arazm et al.
(Jan. 4, 2018, B265659) [nonpub. opn.] and MacDonald v. Singer
et al., supra, B261024.) In those prior appeals, plaintiff’s briefing
largely failed to comply with the standards just summarized but
we were nevertheless able to identify some cognizable legal
arguments and address them on the merits. Here, however,
plaintiff’s brief is so lacking that we are unable to find even a
single comprehensible argument.
To illustrate the inadequacy of plaintiff’s brief, we provide a
few examples. First, plaintiff does not consistently cite to the
appellate record in his brief. Instead, toward the beginning of the
brief, plaintiff includes a small section entitled “Timeline and
Citation to Record,” in which plaintiff lists the titles of various
documents included in the clerk’s transcript, their page ranges,
and the date the documents were filed in the trial court.
Evidently, plaintiff considers that list of documents (and similar
lists provided at the beginning of his two argument sections)
sufficient, as the text of the brief is otherwise devoid of record
citations. Given that the clerk’s transcript in this case consists of

6

APPENDIX A-6

20 volumes separated into four separate sets (one set for each of
the four consolidated appeals) and exceeds 4,000 pages, plaintiff’s
approach plainly fails to satisfy the appellant’s duty u i u to
support the arguments in its briefs by appropriate reference to
the record, which includes providing exact page citations. ...” ’A
party’s inaccurate or missing record citations ‘frustrates this
court’s ability to evaluate which facts a party believes support his
position.’” {Hernandez v. First Student, Inc. (2019) 37
Cal.App.5th 270, 276—277, internal citations omitted.)
The record is also incomplete. Although it is not entirely
clear from his brief, it appears that plaintiff intended to challenge
the court’s order granting the Singer defendants’ anti-SLAPP
motion in this appeal. He failed, however, to include a copy of his
opposition to the Singer defendants’ anti-SLAPP motion in the
clerk’s transcript—a point he concedes in his opening brief. In
light of the applicable standard of review, it would be essential for
us to review the evidence plaintiff submitted in opposition to the
Singer defendants’ anti-SLAPP motion in order to determine
whether the court erred.1 And in the absence of that evidence, we
cannot address the issue. {Haywood v. Superior Court, supra, 77
Cal.App.4th at p. 955.)

1 We review de novo an order granting a special motion to strike under
section 425.16. {Soukup v. Law Offices ofHerbert Ha ff(2006) 39
Cal.4th 260, 269, fn. 3.) In considering the pleadings and supporting
and opposing declarations, we do not make credibility determinations
or compare the weight of the evidence. Instead, we accept the opposing
party’s evidence as true and evaluate the moving party’s evidence only
to determine if it has defeated the opposing party’s evidence as a
matter of law. {Ibid.)

7

APPENDIX A - 7

But plaintiff’s brief suffers from another pervasive failing.
His arguments are simply incomprehensible. For brevity’s sake,
we do not provide an excerpt from plaintiff’s brief here. It is
sufficient to say that, like his briefing in the two prior appeals we
have considered, plaintiff’s 55-page brief is rife with unsupported
allegations of misconduct, conspiracy theories, and disjointed
extra-record references of no apparent relevance to the issues we
might consider.
Since late 2014, plaintiff has initiated 10 appeals or
original proceedings in this court in relation to the same
constellation of parties and alleged misdeeds, and many of those
appeals involved challenges to multiple rulings of the trial court.
Certainly, plaintiff has the right to his day in court and the right
to judicial review of trial court proceedings. But we lack the
resources to create arguments on his behalf from whole cloth. As
another court put it recently, “ ‘We are not obliged to make other
arguments for [appellant] [citation], nor are we obliged to
speculate about which issues counsel intend to raise.’ (Opdyk v.
California Horse RacingBd. (1995) 34 Cal.App.4th 1826, 1831,
fn. 4; see In re Marriage ofFalcone & Fyke (2008) 164
Cal.App.4th 814, 830 [‘We are not bound to develop appellants’
arguments for them.’].) We may and do ‘disregard conclusory
arguments that are not supported by pertinent legal authority or
fail to disclose the reasoning by which the appellant reached the
conclusions he wants us to adopt.’ (City ofSanta Maria v. Adam
[(2012) 211 Cal.App.4th 266,] 287.)” {Hernandez v. First Student,
Inc., supra, 37 Cal.App.5th at p. 277.) The time spent on appeals
such as the present one, which utterly lack merit, is precious. As
the court said in Haynes v. Gwynn (1967) 248 Cal.App.2d 149,
151, “If and when we are required to perform tasks which are

8

APPENDIX A - 8

properly those of appellants’ counsel, we necessarily relegate
farther into the background appeals waiting their turn to be
decided. It is unfair to litigants thus affected that we do this.”
DISPOSITION
The orders are affirmed. Respondents shall recover their
costs on appeal.

NOT TO BE PUBLISHED IN THE OFFICIAL REPORTS

LAVIN, J.
WE CONCUR:

EDMON, P. J.

DHANIDINA, J.

9

APPENDIX A-9

APPENDIX B

California Courts - Appellate Court Case Information

https://appellatecases.courtinfo.ca.gov/search/case/disposition.cfin7dist...

Appellate Courts Case Information
Change court

Supreme Court
Court data last updated: 10/13/2020 03:36 PM

Disposition
MacDONALD v. KEMPINSKY
Division SF
Case Number S261035
Only the following dispositions are displayed below: Orders Denying Petitions, Orders Granting Rehearing and Opinions.
Go to the Docket Entries screen for information regarding orders granting review.
Case Citation:
none
Date

Description

05/13/2020

Petition for review denied

Click here to request automatic e-mail notifications about this case.

Careers | Contact Us | Accessibility | Public Access to Records | Terms of
Use | Privacy

© 2020 Judicial Council of California

»

1 of 1

10/13/2020,4:01 PM

